IN THE
SUPREME COURT OF THE UNITED STATES

VINCENZA PRESTI -PETITIONER
vs.
ALEJANDRO MAYORKAS, Secretary of the
U.S. DEPARTMENT OF HOMELAND SECURITY
RESPONDENT(S)
PROOF OF SERVICE
I, VINCENZA PRESTI, do swear or declare that on this date, JUNE 28, 2021, as
required by Supreme Court Rule 29, I have served the enclosed PETITION FOR A
WRIT OF CERTIORARI on each party to the above proceeding or that party’s counsel,
and on every other person required to be served, by depositing an envelope containing
the above documents in the United States mail properly addressed to each of them and
with first-class postage prepaid, or by delivery to a third-party commercial carrier for
delivery within 3 calendar days. The names and addresses of those served are as
follows:
United States Attorney’s Office
c/o Kathryn Ann Kelly

Xlj

S. Dearborn Street, 5th FI.
Chicago, IL. 60604
I declare under
June 28, 2021^

Jty of perjury that the foregoing is true and correct. Executed on

Vincenza Presti, Petitioner
21

Additional material
from this filing is
available in the
Clerk's Office.

